                                                                                          June 9, 2014

The Honorable Tom Vilsack
Secretary
U.S. Department of Agriculture


Dear Mr. Secretary:

Thank you for your response to my inquiry letter dated April 17, 2014, concerning the Soybeans for
Agricultural Renewal in Afghanistan Initiative (SARAI) funded by the U.S. Department of Agriculture
(USDA). After examining the materials that you provided, I’m concerned about the viability of the
project and the apparent lack of analysis and planning performed prior to the project’s initiation. I’m
most troubled by the following issues:

  •   The USDA confirmed that soybean production in Afghanistan has not met expectations and
      that there are doubts concerning the long-term sustainability of a soybean processing factory
      built as part of the project.
  •   The project’s implementer, the American Soybean Association, did not conduct feasibility or
      value-chain studies prior to initiation of the project in 2010.
  •   Scientific research conducted for the UK Department for International Development between
      2005 and 2008 concluded that soybeans were inappropriate for conditions and farming
      practices in northern Afghanistan, where the program was implemented.
  •   Despite the lack of prior planning and analysis, and despite evidence that may have put the
      success of the program in doubt, USDA provided $34.4 million in commodities, transportation,
      and administrative funds to ASA for SARAI.


I understand that Afghanistan’s operating environment poses daunting challenges for reconstruction
and development programs, and that any project in the country is bound to meet its fair share of
difficulties. However, what is troubling about this particular project is that it appears that many of
these problems could reasonably have been foreseen and, therefore, possibly avoided. Moving
forward, I recommend that you take the following actions prior to any further investment of U.S.
government funding in SARAI:

  •   Implement a thorough and comprehensive evaluation of the project’s future sustainability,
      including a review of existing research on the economic viability of growing soybeans in
      Afghanistan. If a viable business case cannot be supported, withhold further investment.
  •   Develop an in-depth plan to address the deficiencies and challenges already identified.


Additionally, I recommend that USDA thoroughly review the process by which the Food for Progress
program evaluates project proposals and makes its final selections.
I thank you for your cooperation in this matter. Should you have any questions, please contact my
Director of Special Projects, Mr. Jack Mitchell, at              or
at                                  .

                                                                  Sincerely,




                                                                  John F. Sopko
                                                                  Special Inspector General
                                                                   for Afghanistan Reconstruction


Attachments: I: USDA Response to SIGAR-14-51-SP Inquiry Letter
             II: Third-Party Evaluation of SARAI
             III: SIGAR-14-51-SP Inquiry Letter: USDA Soybean Program




SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry                                     Page 2
ATTACHMENT I: USDA RESPONSE TO SIGAR-14-51-SP INQUIRY
LETTER




SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 3
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 4
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 5
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 6
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 7
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 8
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 9
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 10
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 11
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 12
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 13
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 14
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 15
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 16
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 17
ATTACHMENT II: THIRD-PARTY EVALUATION OF SARAI




SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 18
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 19
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 20
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 21
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 22
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 23
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 24
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 25
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 26
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 27
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 28
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 29
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 30
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 31
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 32
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 33
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 34
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 35
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 36
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 37
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 38
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 39
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 40
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 41
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 42
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 43
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 44
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 45
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 46
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 47
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 48
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 49
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 50
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 51
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 52
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 53
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 54
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 55
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 56
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 57
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 58
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 59
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 60
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 61
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 62
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 63
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 64
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 65
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 66
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 67
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 68
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 69
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 70
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 71
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 72
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 73
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 74
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 75
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 76
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 77
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 78
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 79
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 80
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 81
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 82
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 83
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 84
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 85
ATTACHMENT III: SIGAR-14-51-SP INQUIRY LETTER: USDA SOYBEAN
PROGRAM




SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 86
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 87
SIGAR-14-69-SP Inquiry Letter: USDA Response to Soybean Inquiry   Page 88
